E-Mail Address:
contact@cocklelegalbriefs.com

COCKLE

Legal Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Pax: (402) 342-4850

No. 21-147

ERIK EGBERT,
Petitioner,
v.
ROBERT BOULE,
Respondent.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), | certify that the BRIEF OF AMICUS
CURIAE NATIONAL BORDER PATROL COUNCIL IN SUPPORT OF PETITIONER in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this

brief contains 4660 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 31st day of August, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOFARY-State of Nebraska “a
RENEE J. GOSS Y. é ex haa , Ch Ly

Notary Public Affiant 41334

 

 

My Comm. Exp. September 5, 2023
